                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM




               We received an allegation that a foreign research institute' had a website that used'the NSF
        logo and promoted a "DOE-NSF/[institute name] Summer Exchange                       but without any
        actual NSF support. We were unable to confirm that the institute received NSF support for its
        program. We contacted the institute and asked whether it received NSF support for its pro-,      and



                                                                                                    I

                                                                                                    11




NSF OIG Form 2 (1 1/02)
